Affidavit of Frederick Arayatanon
RE: USCA5 No.(?)
I frederick Arayatanon declare under penalty of perjury
under the laws of the United States of America that I mailed
the enclosed petition which is marked received JUL 20 2021 on
July 1st of 2021. As stated in the proof of service page
included in the petition, MI declare under penalty.of perjury
that the foregoing is true and correct. Executed on July 1,
2021."

I did everything I could reasonably do to ensure the

documents were received by the Clerk of the Court in a timely
manner, including 1st class postage, properly addressed, and
placed in outgoing mail following prison regulations. It is a .
known fact that outgoing mail in this institution is sometimes
held for purposes of photocopying the contents and other purpo­
ses which sometimes delays delivery. I am asking that the "mail­
box rule" be applied in this instance, "..a sworn statement is
credible evidence of mailing for the purposes of the mailbox
rule." Gamel v. Prideco L.P. Sept. 11, 2015 625 Fed. Appx. 690,
U.S. App LEXIS 16263.
Signed and dated this 19th day of August 2021.
non,

To Clerk of the Court: Enclosed is the petition re-submitted for
writ of certiorari, which includesthe appended
--------------------—- —
.lower _court opinions and the question presented
for review on the first p-a-ge behind the cover of.
the petition as requested pursuant to Rulel4.1(a)
I have also mailed a copy of this re-submitted
motion to Shundral Hobson-Cole, counsel for the
United States at U.S. Attorney's Office 1575 20th
Avenue Gulfport, Ms 39501 on same date as this
petition.
erily,

£2

Arayatanon

